         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs to Improve
       Continuity of Operations Planning
       Report No. 10-P-0017         


       October 27, 2009        

Report Contributors:	               Gabrielle Fekete
                                    Jeffrey Harris
                                    Denton Stafford
                                    Olga Stein
                                    Steve Weber




Abbreviations

COOP          Continuity of Operations
EPA           U.S. Environmental Protection Agency
FCD 1         Federal Continuity Directive 1
HSPD-20       Homeland Security Presidential Directive 20
OEM           Office of Emergency Management
OIG           Office of Inspector General




Cover photos:	 From left: The Centers for Disease Control and Prevention-developed
               Polymerase Chain Reaction diagnostic test to detect novel influenza virus;
               image of the newly identified influenza virus; facemask to reduce transmission
               of influenza virus (photos courtesy Centers for Disease Control and Prevention).
                     U.S. Environmental Protection Agency 	                                                  10-P-0017
                                                                                                       October 27, 2009
                     Office of Inspector General


                     At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA Needs to Improve Continuity of
The objective of this             Operations Planning
evaluation was to determine
how well the U.S.                  What We Found
Environmental Protection
Agency (EPA) can accomplish       EPA has limited assurance that it can successfully maintain continuity of
its mission essential functions   operations and execute its mission essential functions during a significant national
in the event of a pandemic        event such as a pandemic influenza outbreak. EPA’s COOP policy does not
influenza or equivalent           clearly define authorities and responsibilities for continuity planning at all levels
national emergency that           of the Agency and has not been updated to reflect current national directives and
necessitates Continuity of        guidance. EPA lacks internal management controls, including guidance and
Operations (COOP)                 systematic oversight, to ensure that regional offices have developed continuity
activation.                       plans that meet the requirements of FCD 1. Regional plans generally lack
                                  consistency, particularly in the area of mission essential functions, and there was
Background                        no evidence that EPA Headquarters had reviewed, approved, or commented on the
                                  regional plans, their designation, or lack of essential functions.
Federal Continuity Directive 1
(FCD 1) requires EPA to           EPA’s continuity training and exercises have not prepared the Agency to provide
develop a continuity plan that    essential services during a significant national event. EPA has not held and does
ensures its ability to            not require any all-employee continuity training. Also, EPA’s continuity exercises
accomplish its mission            do not test EPA’s ability to execute its mission essential functions following
essential functions from an       COOP activation. Four out of six regions contacted and all but one program office
alternative site with limited     have not conducted internal exercises to test capabilities during a pandemic.
staffing and without access to
resources available during         What We Recommend
normal activities. EPA must
be prepared to continue to        EPA should establish a schedule to complete FCD 1 requirements, designate a
function during an emergency      lead office for COOP planning, and identify Headquarters and regional
and to effectively resume         responsibilities and authorities. EPA should also develop consistent mission
essential operations when they    essential functions and COOP plan preparation and training guidance for all
are interrupted.                  regions. Further, EPA Headquarters should review and approve all regional and
                                  program office COOP plans. The Agency concurred with our recommendations.


For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20091027-10-P-0017.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         October 27, 2009

MEMORANDUM

SUBJECT:	              EPA Needs to Improve Continuity of Operations Planning
                       Report No. 10-P-0017


FROM:	                 Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Mathy Stanislaus
                       Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $519,022.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827;
or Jeffrey Harris, Director for Program Evaluation, Cross-Media Issues, at 202-566-0831 or
harris.jeffrey@epa.gov.
EPA Needs to Improve                                                                                                         10-P-0017
Continuity of Operations Planning



                                   Table of Contents 


Chapters 

   1     Introduction ...........................................................................................................     1


                 Purpose ..........................................................................................................   1        

                 Background ....................................................................................................      1        

                 Noteworthy Achievements..............................................................................                2        

                 Scope and Methodology.................................................................................               2


   2     EPA’s Continuity of Planning Operations Is Inconsistent ................................                                     4


                 EPA’s Continuity Policy Should Be More Definitive and Strengthened .........                                         4

                 Regional Continuity Plans Vary Significantly..................................................                       5

                 Training and Exercises Are Insufficient ..........................................................                   6

                 Conclusion......................................................................................................     8

                 Recommendations ........................................................................................             8

                 Agency Comments and OIG Evaluation ........................................................                          8


   Status of Recommendations and Potential Monetary Benefits.................................                                         10   




Appendices 

   A     Agency Comments on Draft Report ....................................................................                         11   


   B     Distribution ............................................................................................................    14   

                                                                                    10-P-0017





                                Chapter 1

                                 Introduction
Purpose
          The overall objective of this evaluation was to determine how well the U.S.
          Environmental Protection Agency (EPA) can accomplish its mission essential
          functions in the event of a pandemic influenza or equivalent national emergency
          that necessitates Continuity of Operations (COOP) activation. Specifically, we
          sought to evaluate:

             •	 The COOP responsibilities and authorities of EPA Headquarters and
                regional offices,
             •	 The consistency of mission essential functions across EPA and its regional
                offices, and
             •	 COOP exercises and training across EPA and its regional offices.

Background
          Spurred in part by occasional warnings of potential terrorist threats in the
          post-9/11 era, policymakers have intensified their focus on COOP issues.
          COOP planning is a segment of Federal Government contingency planning linked
          to continuity of government. Together, COOP and continuity of government are
          designed to ensure survival of a constitutional form of government and the
          continuity of essential federal functions.

          Broadly, COOP planning refers to the internal effort of an organization, such as a
          branch of government, department, or office, to assure that the capability exists to
          continue essential operations in response to a comprehensive array of potential
          operational interruptions. EPA must be prepared to continue to function during
          all hazards, an emergency, or threat of an emergency, and to effectively resume
          essential operations after they are interrupted. COOP plans provide EPA with the
          capability to perform these essential functions for up to 30 days.

          The Department of Homeland Security’s Federal Continuity Directive 1 (FCD 1)
          requires EPA to develop a continuity plan that ensures its ability to accomplish its
          mission essential functions from an alternative site, with limited staffing and
          without access to resources available during normal activities. A limited set of
          government functions determined to be vital activities are defined as the agency’s
          “mission essential functions.” These functions are used to identify supporting
          tasks and resources that must be included in the agency’s continuity planning
          process.




                                            1

                                                                                   10-P-0017



         It is EPA’s policy to have in place a comprehensive program (COOP) to ensure
         continuity of its essential functions under all emergency circumstances. Under
         Homeland Security Presidential Directive 20 (HSPD-20), EPA is required to
         designate an Agency Continuity Coordinator charged with ensuring EPA’s
         continuity program is consistent with federal policies. The Office of Solid Waste
         and Emergency Response’s Office of Emergency Management (OEM) is
         responsible for developing EPA’s Continuity Plan.

         EPA’s Office of Homeland Security is responsible for coordinating the Agency’s
         intra-agency Pandemic Influenza preparedness planning. During a pandemic
         outbreak, EPA performs a support role to the Departments of Homeland Security
         and Health and Human Services in preparing and protecting the nation’s drinking
         water and wastewater critical infrastructure. EPA must be prepared for a
         pandemic scenario where social distancing is a key coping strategy because
         essential services and functions may be broader than 30-day COOP planning.
         The Federal Government therefore recommends that government entities and the
         private sector plan with the assumption that up to 40 percent of their staff may be
         absent for periods of about 2 weeks at the height of a pandemic wave with lower
         levels of staff absent for a few weeks on either side of the peak.

Noteworthy Achievements
         The EPA Continuity Program has ensured the development of a COOP plan for
         each regional office. The Agency recently developed its Primary Mission
         Essential Function, as required by federal directives, and received approval from
         the Assistant to the President for Homeland Security and Counterterrorism on
         June 1, 2009. Regional continuity planners have developed a self-evaluation tool,
         shared best practices, held annual meetings, and partnered with Headquarters
         continuity planners through details to OEM.

Scope and Methodology
         We conducted this performance evaluation in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based upon our objectives. We performed our evaluation from
         September 2008 through August 2009.

         This evaluation specifically focused on the management of EPA’s COOP program
         planning process. This includes federal requirements that dictate the roles and
         responsibilities for EPA, and how specific offices have discharged those
         responsibilities. Our field work included:




                                          2

                                                                     10-P-0017



•	 Interviews with officials in EPA’s OEM and Office of Homeland Security
   to determine Headquarters and regional COOP responsibilities and
   authorities;
•	 Review of current Regional COOP Plans for Regions 1-10 and Research
   Triangle Park, North Carolina, focusing on consistency of mission
   essential functions;
•	 Review of Headquarters and selected regional COOP exercise “after
   action” reports for Fiscal Years 2008-2009 to determine the extent of EPA
   preparedness for COOP events; and
•	 Interviews with regional COOP planners on consistency of mission
   essential functions, responsibility and authority, and exercises and
   training.

Our review included examining applicable laws, regulations, and Agency
guidance. We also reviewed internal controls as relevant to our objectives.
This is our first examination of COOP planning and EPA’s ability to
accomplish its mission essential functions; there have been no prior Office of
Inspector General (OIG) reviews in this area.




                             3

                                                                                   10-P-0017





                                Chapter 2

        EPA’s Continuity of Operations Planning 

                    Is Inconsistent 

          EPA has limited assurance that it can successfully maintain continuity of
          operations and execute its mission essential function during a significant national
          event such as a pandemic influenza outbreak. Continuity planning is inconsistent
          because EPA policy does not clearly define authority or Headquarters and
          regional responsibilities to reflect current national directives and guidance. EPA
          has not provided the regions with adequate guidance detailing the identification
          and prioritization of essential functions, nor reviewed, approved, or commented
          on regional plans or essential functions. Further, EPA lacks systematic oversight
          to ensure that regions have developed continuity plans that adequately incorporate
          FCD 1. EPA’s COOP training and exercises are insufficient to prepare or assess
          the Agency’s ability to provide its essential services during a significant
          emergency. As a result, EPA is not prepared to provide its essential services that
          protect human health and the environment during a significant national event.

EPA’s Continuity Policy Should Be More Definitive and Strengthened
          EPA has not updated its continuity policy to reflect current national directives
          (HSPD-20) and guidance (FCD 1.) EPA’s current COOP policy, EPA Order
          2030.1A, “Continuity of Operations Policy,” does not clearly define authorities
          and responsibilities for COOP planning at all Agency levels.

          HSPD-20 and FCD 1 require the heads of federal executive agencies to appoint a
          senior accountable official at the Assistant Secretary level as the Continuity
          Coordinator for the department or agency. EPA designated the Assistant
          Administrator for Solid Waste and Emergency Response as the Agency’s
          Continuity Coordinator via a November 6, 2007, memorandum. However, this
          memorandum did not define the responsibility and reach of authority for the
          coordinator. OEM staff also said EPA has not outlined the coordinator’s role.

          EPA Order 2030.1A, dated April 2005, predates HSPD-20 and FCD 1 and does
          not meet all national requirements. Specifically, EPA Order 2030.1A does not
          mention the role or responsibilities of the Agency Continuity Coordinator.
          Instead, this order outlines the responsibilities of EPA’s Emergency Coordinator.
          The absence of the Agency Continuity Coordinator’s role and responsibilities
          contributes to the inconsistencies we found throughout EPA’s COOP planning
          efforts.




                                           4

                                                                                     10-P-0017



          EPA Order 2030.1A does not define the lead authority for continuity planning and
          guidance development. Under current policy, EPA’s Emergency Coordinator is
          responsible for ensuring that the developed EPA COOP plan follows this order.
          The Regional Administrators and Laboratory Directors are also responsible for
          developing COOP plans in accordance with this order. The Emergency
          Coordinator does not have direct approval authority over the Regional
          Administrators’ and Laboratory Directors’ COOP plans.

Regional Continuity Plans Vary Significantly
          While the EPA regions have actively participated in continuity planning since the
          mid-1990s, mission essential functions and regional COOP plans vary
          significantly from region to region. There was no evidence that EPA
          Headquarters formally reviewed, approved, or commented on the regional plans,
          their designation, or lack of essential functions. EPA lacks internal management
          controls, including guidance and systematic oversight, to ensure regional offices
          have developed continuity plans that adequately satisfy FCD 1 requirements.

          The identification and prioritization of mission essential functions is a prerequisite
          for COOP planning, as they establish the parameters that guide COOP planning.
          For example, FCD 1 directs all federal agencies to identify alternative facilities,
          staff, and resources necessary to support continuation of these functions. Proper
          identification of mission essential functions is vital to ensure EPA has the ability
          to deliver its mission essential functions and services uninterrupted during a range
          of potential emergencies. The COOP plans we reviewed for identified mission
          essential functions varied in number and scope. Regions generally did not
          prioritize or establish the time sensitivity of the functions they had identified.

          Also, the apparent importance of the functions was not consistent. For example, a
          number of mission essential functions were of clear importance, such as:

             •	 “Ensure the continued and uninterrupted command, control, and
                leadership of the EPA.”
             •	 “Emergency Response program, time critical actions EPA needs to take.”
             •	 “Communicate and coordinate with state agencies and local
                governments.”

          Other identified functions appeared of questionable importance or overly vague:

             •	 “Oversee the ethics program for the Agency.”
             •	 “Protect the office’s workforce in accordance with guidance issued by
                EPA.”
             •	 “Support current ongoing EPA activities that cannot or should not be
                disrupted...”




                                            5

                                                                                      10-P-0017



          EPA Headquarters last issued guidance for COOP planning in 2005. This
          guidance outlined basic minimum requirements for continuity plans, training, and
          coordinating personnel. However, unlike EPA Order 2030.1A, FCD 1 does
          require EPA Headquarters to review and approve Agency mission essential
          functions that are a necessary element to COOP plan development. We found no
          evidence of the EPA Continuity Coordinator’s review of regional plans. OEM
          receives courtesy copies of the plans but does not formally review them. This
          absence of management controls has resulted in inconsistent continuity planning
          nationally, and may negatively impact EPA’s readiness to respond to an incident
          of national significance.

          Our review of COOP plans developed or being used by the regions during Fiscal
          Year 2009 showed that many regional offices had not incorporated all of the
          FCD 1 requirements. EPA regions were still citing Federal Preparedness
          Circular 65, which was superseded by FCD 1 in February 2008. Issues such as
          vital records, devolution (capability to transfer statutory authority and
          responsibility), and reconstitution (resume normal agency operations) had not
          been fully addressed by many regions. To address the issue of devolution, the
          regions recently formed a work group.

          Although regional COOP plans generally adhered to the FCD 1 criteria, we found
          four elements that needed improvement in more than one region:

             •   Identification of Essential Functions
             •   Vital Record Management
             •   Devolution of Control and Direction
             •   Reconstitution

          Our results show that not all regions have differentiated their essential functions
          from their normal business operations, and not all regions have determined how
          they will address vital record issues, potential devolution issues, or reconstitution
          of normal activities.

Training and Exercises Are Insufficient
          EPA’s continuity training and exercises do not sufficiently prepare or assess the
          Agency’s ability to provide its essential services during a significant emergency.
          EPA’s training scenarios primarily test equipment, communication systems, and
          access to records. Four out of six regions contacted and all but one program
          office have not conducted internal exercises for a pandemic. Feedback and
          lessons learned in “after action” reports indicate the need for more realistic
          exercises. However, EPA lacks a consistent process for addressing the
          recommendations or gaps identified from these lessons learned.

          EPA training scenarios lack a comprehensive focus. We found that all regions
          reviewed activated a telephone tree or similar emergency system, deployed


                                            6

                                                                                                        10-P-0017



                 essential personnel to site, tested information technology and communication
                 systems, and reviewed vital records. Few training scenarios required a complete
                 deployment of resources and used minimal staff at the alternative site. Exercises
                 held at designated alternative sites focused primarily on discussion of possible
                 scenarios and communication issues rather than operation of essential functions.
                 For example, Regions 1, 2, and 9 all conducted “tabletop” exercises1 at their
                 alternative sites but did not require a complete deployment of resources using
                 designated staff.

                 We found that only Headquarters’ Office of Prevention, Pesticides, and Toxic
                 Substances and Region 6 have conducted internal exercises for the pandemic
                 influenza. Other regions have added a Pandemic Influenza Annex to their COOP
                 plans but have not conducted exercises that would prepare for this scenario. The
                 pandemic scenario includes unique requirements, such as a telework component,
                 where staff would have to work for many contiguous days in a social distancing
                 situation.

                 Regions vary on the extent and frequency of training for all employees. We asked
                 several of the regional COOP planners if they provided continuity training for all
                 of their employees. One replied that regional staff could find COOP information
                 on the regional Intranet site. Another said he relies on the divisional COOP
                 planners to provide this. EPA Headquarters has not held and does not require any
                 all-employee continuity training.

                 EPA does not have a consistent process for addressing the recommendations or
                 gaps identified from lessons learned during the exercises. The after action reports
                 we reviewed all contain different formats and schedules for completion.
                 Generally, each report contains sections where the regional COOP manager
                 identifies action items and deadlines to complete these items, and designates the
                 staff/group responsible for the item. Each regional COOP planner is responsible
                 for his or her own plan after action reports and deadlines.

                 After action reports indicated the need for more realistic exercises; the reports
                 often described gaps or necessities in these areas. One comment provided by staff
                 was, “The MTSD [Management and Technical Services Division] will work to
                 ensure essential staff know their role/responsibilities.” Another report
                 recommended that the “Notification program for all EPA HQ employees in the
                 National Capital Region must be exercised during a COOP deployment.” Staff
                 offered recommendations to improve the design of the exercise, including:
                 “Recommend more regular and realistic exercises; need to grow exercise into an
                 actual event simulation” and “Recommend increasing the interaction with other
                 AA [Assistant Administrator]-ships and external partners.”

1
 A tabletop exercise is the analysis of a simulated emergency situation in an informal, stress-free environment.
There is minimal attempt at simulation in a tabletop exercise. Equipment is not used, resources are not deployed,
and time pressures are not introduced. This is the simplest type of exercise to conduct in terms of planning,
preparation, and coordination.


                                                         7

                                                                                   10-P-0017



Conclusion
         EPA has limited assurance that it can successfully maintain continuity of
         operations and execute its mission essential function during a significant national
         event such as a pandemic influenza outbreak. EPA’s current policy does not
         clearly define authority and EPA Headquarters and regional responsibilities. This
         has created inconsistencies in continuity planning and training, and varying
         mission essential functions and continuity plans by the regions. As a result, there
         is no assurance that EPA will be able to provide its essential services to protect
         human health and the environment during a national emergency.

Recommendations
         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-1 	   Establish a schedule for the completion of the requirements in FCD 1.

         2-2 	   Establish Headquarters and regional COOP responsibilities and
                 authorities, including designating a lead office for COOP planning.

         2-3 	   Develop consistent guidance and procedures for preparing regional COOP
                 plans.

         2-4 	   Develop consistent mission essential functions and priorities for all
                 regions to include in their COOP plans.

         2-5 	   Develop training guidance that incorporates realistic scenarios that prepare
                 personnel to perform mission essential functions during a COOP
                 activation (i.e., from an alternate location with limited staff).

         2-6 	   Review and approve COOP plans, priorities, training, and exercises to
                 ensure that EPA’s regional and program offices (a) systematically identify
                 their mission essential functions and personnel, and (b) are prepared to
                 respond to an all-hazards event.

Agency Comments and OIG Evaluation
         In written comments on a draft of this report, the Assistant Administrator for
         Solid Waste and Emergency Response and the Acting Assistant Administrator for
         Homeland Security generally agreed with our findings regarding consistency of
         continuity planning, EPA’s continuity policy, regional continuity plans, and
         training and exercises. They also included a table of the Office of Solid Waste
         and Emergency Response’s planned completion dates for our recommendations.
         These actions are consistent with the intent of our recommendations. However,
         the Agency officials did not concur with the OIG’s overall conclusion that EPA


                                           8

                                                                          10-P-0017



has “no assurance” that it can successfully maintain continuity of operations and
execute its mission essential functions during a significant national event such as
a pandemic influenza outbreak. We modified the report language in light of the
Headquarters’ ongoing actions in response to FCD 1 and the various exercises
conducted in several regions. The Agency’s written response is in Appendix A.




                                  9

                                                                                                                                        10-P-0017



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1         Action Official           Date      Amount      Amount
    2-1       8     Establish a schedule for the completion of the          O          Assistant Administrator   11/15/2009
                    requirements in FCD 1.                                              for Solid Waste and
                                                                                       Emergency Response
    2-2       8     Establish Headquarters and regional COOP                O          Assistant Administrator   6/30/2010
                    responsibilities and authorities, including                         for Solid Waste and
                    designating a lead office for COOP planning.                       Emergency Response
    2-3       8     Develop consistent guidance and procedures for          O          Assistant Administrator   10/30/2010
                    preparing regional COOP plans.                                      for Solid Waste and
                                                                                       Emergency Response
    2-4       8     Develop consistent mission essential functions and      O          Assistant Administrator   10/30/2010
                    priorities for all regions to include in their COOP                 for Solid Waste and
                    plans.                                                             Emergency Response
    2-5       8     Develop training guidance that incorporates             O          Assistant Administrator   2/15/2011
                    realistic scenarios that prepare personnel to                       for Solid Waste and
                    perform mission essential functions during a COOP                  Emergency Response
                    activation (i.e., from an alternate location with
                    limited staff).
    2-6       8     Review and approve COOP plans, priorities,              O          Assistant Administrator
                    training, and exercises to ensure that EPA’s                        for Solid Waste and
                    regional and program offices (a) systematically                    Emergency Response
                    identify their mission essential functions and
                    personnel, and (b) are prepared to respond to an
                    all-hazards event.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                10 

                                                                                      10-P-0017



                                                                                  Appendix A

                 Agency Comments on Draft Report

MEMORANDUM


SUBJECT:	 Response to the OIG Draft Evaluation Report “EPA Needs to Improve
          Continuity of Operations Planning,” Project No. OPE-08-0024

FROM:         	Mathy Stanislaus
              Assistant Administrator
              Office of Solid Waste and Emergency Response

              Juan Reyes        

              Acting Assistant Administrator          

              Office of Homeland Security 


TO: 	         Jeffrey K. Harris, PhD
              Director for Program Evaluation, Cross Media Issues
              Office of Inspector General

       Thank you for the opportunity to review and comment on the subject OIG draft report.
The report addresses EPA’s continuity policy, Regional continuity plans, training and exercises
and provides a list of recommendations for improvement. We would also like to thank you for
incorporating some of the comments that we had requested in our June 25, 2009, response to the
discussion draft and for describing noteworthy achievements at Headquarters and in the Regions.

       As we stated in our June response, the OIG performed the evaluation in the midst of
OSWER’s efforts to update the EPA Headquarters Continuity Plan, the Pandemic Influenza
Annex, and the Devolution Annex. We are also in the process of updating the existing EPA
Order that incorporates the requirements of the Department of Homeland Security’s Federal
Continuity Directives 1 and 2. We generally agree with the findings regarding consistency of
continuity planning, EPA’s continuity policy, Regional continuity plans, and training and
exercises. However, many of the OIG’s concerns will be addressed upon completion of the
updated Continuity of Operations Plan and a revised EPA Order.

        We do, however, take exception that these findings lead to a conclusion that EPA has “no
assurance” that it can successfully maintain continuity of operations and execute its mission
essential functions during a significant national event such as a pandemic influenza outbreak.
Recognizing that our program does need improvement, we have made extensive progress
developing our COOP plans and exercising key capabilities of essential personnel. While our
exercises have shown areas in need of improvement, we have been evaluated by FEMA, GAO
and other independent subject-matter assessors, and these appraisals have generally received
acceptable scores for key Federal requirements. Based on your findings and our program


                                               11 

                                                                                      10-P-0017



knowledge, we assess that your conclusion of “no assurance” is imprecise because it does not
accurately reflect the status of our program, and is not consistent with previous outside
evaluations. We ask that the statement be changed to “limited assurance” to more accurately
reflect the state of our COOP Program.

        As requested, we have included the table of proposed recommendations and OSWER’s
planned completion dates. We look forward to coordinating with OIG, other AAships, and the
Regional offices to continue to improve our continuity program. If you have any questions,
please contact Deborah Dietrich, Director of the Office of Emergency Management, at
202-564-6743.

Attachment




                                              12 

                                                                                10-P-0017


       OIG Recommendations to Improve EPA’s Continuity Program

Recommendation                     Subject                       OSWER Planned
                                                                 Completion Date
     2-1         Establish a schedule for completion of the        11/15/2009
                 requirements in FCD 1.
     2-2         Establish Headquarters and Regional                6/30/2010
                 COOP responsibilities and authorities,
                 including designating a lead office for
                 COOP planning.
     2-3         Develop consistent guidance and                   10/30/2010
                 procedures for preparing Regional COOP
                 plans.
     2-4         Develop consistent mission essential              10/30/2010
                 functions and priorities for all Regions to
                 include in their COOP plans.
     2-5         Develop training guidance that                     2/15/2011
                 incorporates realistic scenarios that prepare
                 personnel to perform mission essential
                 functions during a COOP activation (i.e.,
                 from an alternate location with limited
                 staff).
     2-6         Review and approve COOP plans,                   Annual review
                 priorities, training, and exercises to ensure
                 that EPA’s Regional and program offices
                 (a) systematically identify their mission
                 essential functions and personnel, and (b)
                 are prepared to respond to an all-hazards
                 event.




                                             13 

                                                                                10-P-0017


                                                                            Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Acting Assistant Administrator for Homeland Security
Director, Office of Emergency Management, Office of Solid Waste and Emergency Response
General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Acting Inspector General




                                           14 

